Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



 LIMITED COMPLIANCE WITH
 MEDICARE’S HOME HEALTH
       FACE-TO-FACE
      DOCUMENTATION
       REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                       April 2014
                     OEI-01-12-00390
EXECUTIVE SUMMARY: Limited Compliance With Medicare’s Home Health
Face-to-Face Requirement
OEI-01-12-00390

WHY WE DID THIS STUDY
The Patient Protection and Affordable Care Act (ACA) requires that physicians (or
certain practitioners working with them) who certify beneficiaries as eligible for
Medicare home health services document—as a condition of payment for home health
services—that face-to-face encounters with those beneficiaries occurred. This study
(1) determined the extent to which physicians who certified home health care
documented the face-to-face encounters, (2) described the nature of face-to-face
documentation, and (3) assessed the Centers for Medicare & Medicaid Services’ (CMS)
oversight of the face-to-face requirement.

HOW WE DID THIS STUDY
We reviewed 644 face-to-face encounter documents to analyze the extent to which the
documents confirmed encounters and contained the required elements. We interviewed
the four Home Health and Hospice Medicare Administrative Contractors (HH MACs) to
describe how they ensure that home health agencies met the face-to-face encounter
requirements. We also reviewed guidance documents and policies from CMS or the
HH MACs about monitoring the face-to-face requirement.

WHAT WE FOUND
For 32 percent of home health claims that required face-to-face encounters, the
documentation did not meet Medicare requirements, resulting in $2 billion in payments
that should not have been made. Furthermore, physicians inconsistently completed the
narrative portion of the face-to-face documentation. Some face-to-face documents
provide information that, although not required by Medicare, could be useful, such as a
printed name for the physician and a list of the home health services needed. CMS
oversight of the face-to-face requirement is minimal.

WHAT WE RECOMMEND
We recommend that CMS (1) consider requiring a standardized form to ensure that
physicians include all elements required for the face-to-face documentation,
(2) develop a specific strategy to communicate directly with physicians about the face-to-
face requirement, and (3) develop other oversight mechanisms for the face-to-face
requirement. CMS concurred with all three of these recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

     For 32 percent of home health claims that required face-to-face 

     encounters, the documentation did not meet Medicare requirements, 

     resulting in $2 billion in payments that should not have been made .....8 


     Physicians inconsistently completed the narrative content of the 

     face-to-face documentation ....................................................................9 


     Some face-to-face documents contain elements that, although not 

     required by Medicare, provide information that could be useful.........13 

     CMS oversight of the face-to-face requirement is minimal.................14 


Conclusion and Recommendations ............................................................15 


     Agency Comments and Office of Inspector General Response...........17 



Appendixes ................................................................................................18 

     A: Samples of Face-to-Face Documents.............................................18 

     B: Confidence Intervals ......................................................................24 

     C: Agency Comments .........................................................................28 

Acknowledgments......................................................................................31 

                  OBJECTIVES
                  1.	 To determine the extent to which physicians who certified home health
                      services documented face-to-face encounters with the beneficiaries
                      within the required timeframe.
                  2.	 To describe the nature of the face-to-face documentation.
                  3.	 To assess the Centers for Medicare & Medicaid Services’ (CMS)
                      oversight of the face-to-face requirement.

                  BACKGROUND
                  The Patient Protection and Affordable Care Act (ACA) provides new tools
                  to enhance CMS’s efforts to prevent and detect fraud in its programs. For
                  example, the ACA requires certain categories of providers with an
                  increased risk for fraud, such as home health agencies (HHAs), to comply
                  with enhanced fraud-prevention provisions. Among other steps, the ACA
                  requires that physicians (or certain practitioners working with them) who
                  certify beneficiaries as eligible for Medicare home health services
                  document—as a condition of payment for home health services—that
                  face-to-face encounters with those beneficiaries occurred.1
                  Medicare Requirements for Home Health Services
                  Medicare beneficiaries who are generally confined to their homes may be
                  eligible to receive certain medical services at home.2 These home health
                  services include part-time or intermittent skilled nursing care, physical
                  and/or occupational therapy, speech-language pathology, medical social
                  services, and part-time or intermittent home health aide services.3 To
                  qualify for home health services, Medicare beneficiaries must (1) be
                  homebound; (2) need intermittent skilled nursing care, physical therapy or
                  speech therapy, or continuing occupational therapy; (3) be under the care
                  of a physician; and (4) be under a plan of care that has been established
                  and periodically reviewed by a physician.4 For each 60-day episode of
                  care that a beneficiary receives from an HHA, Medicare makes a
                  standardized payment. For the HHA to receive that payment, a physician



                  1
                    P.L. 111-148, § 6407(a), as revised by § 10605 (adding the face-to-face requirement at
                  Social Security Act, § 1814(a)(2)(C)). Face-to-face encounters may be performed
                  through telehealth visits subject to the requirements in § 1834(m).
                  2
                    Social Security Act, § 1814(a)(2)(C).
                  3
                    Social Security Act, § 1861(m); CMS, Medicare Benefits Policy Manual (MBPM), Pub.

                  No. 100-02, ch. 7, § 40.

                  4
                    42 CFR § 424.22. 



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   1
                  must certify the beneficiary’s initial need for home health services and
                  homebound status and must recertify the need at least every 60 days.5
                  Homebound Status
                  Medicare considers beneficiaries homebound if, because of illness or injury,
                  they have conditions that restrict their ability to leave their places of
                  residence. Homebound beneficiaries do not have to be bedridden, but
                  should be able to leave their residences only with “considerable and taxing
                  effort.” Absences from home should be infrequent, for short durations, or for
                  health care treatment.6
                  Intermittent Skilled Nursing or Therapy Services
                  The Social Security Act defines “part-time or intermittent services” as
                  “skilled nursing care that is either provided or needed on fewer than 7 days
                  each week or less than 8 hours of each day for periods of 21 days or less.”7
                  The skilled nursing care must be provided by a registered nurse or licensed
                  practical (vocational) nurse under the supervision of a registered nurse.8
                  Home health aide services may include personal care, such as bathing and
                  dressing; feeding; and simple dressing changes that do not require the skills
                  of a licensed nurse.9 Therapy services must be performed by a qualified
                  therapist or therapy assistant under the supervision of a qualified therapist.10
                  Requirement To Be Under the Care of a Physician
                  Medicare requires that to be eligible for home health services,
                  beneficiaries be under the care of a doctor of medicine, osteopathy, or
                  podiatric medicine.11 As of April 1, 2011, CMS began requiring full
                  compliance with the requirement that the certifying physician or clinician
                  have a face-to-face encounter with the beneficiary as a condition of
                  payment for home health care.12
                  Established Plan of Care
                  Medicare pays for home health services only if they are provided under a
                  plan of care that a physician establishes and periodically reviews.13 The
                  physician must review, sign, and date the plan at least once every 60 days.14

                  5
                    42 CFR § 424.22. 

                  6
                    MBPM, ch. 7, § 30.1.1. 

                  7
                    Social Security Act § 1861(m).

                  8
                    MBPM, ch. 7, § 40.1.1.

                  9
                    MBPM, ch. 7, § 50.2. 

                  10
                     MBPM, ch. 7, §§ 40.2–40.2.4.3.

                  11
                     42 CFR § 424.22(a)(iv).

                  12
                     ACA, § 6407(a), as revised by § 10605; CMS notice accessed at http://www.cms.gov

                  on November 14, 2013.

                  13
                     42 CFR § 424.22(a)(iii). 

                  14
                     MBPM, ch. 7, § 30.2.6.




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   2
                  If a beneficiary does not receive at least one covered skilled nursing visit,
                  physical therapy visit, speech-language pathology service visit, or
                  occupational therapy visit within the 60-day episode, CMS considers the
                  plan to be terminated.15
                  Face-to-Face Requirement
                  For the initial home health episode of care only, the certifying physician
                  must document a face-to-face encounter with the patient.16 The HHA must
                  obtain documentation that the face-to-face encounter with the patient
                  occurred and that the encounter was related to the primary reason the
                  beneficiary needs home health care. If the certifying physician does not
                  complete the documentation correctly, CMS can deny the HHA payment
                  because the face-to-face requirement is a Medicare condition of payment.17
                  CMS holds the HHA financially accountable for ensuring that the
                  documentation from the physician meets the applicable criteria.
                  CMS allows physicians to use a standard form to document the visit.
                  However, CMS does not permit a form that the HHA completes and the
                  physician merely signs; the physician must actually complete the
                  documentation. The documentation must include the following elements
                  to meet the condition of payment.18
                       1.	 The certifying physician must complete and sign the face-to-face
                           documentation, regardless of who performs the face-to-face
                           encounter. Federal law mandates as a condition of payment that
                           the certifying physician, the physician who cared for the patient in
                           an acute-care or post-acute-care facility, or a permitted
                           nonphysician practitioner have a face-to-face encounter with the
                           patient whom the physician is certifying for home health services.
                           CMS has clarified that a patient’s physician for acute care or post-




                  15
                     MBPM, ch. 7, § 30.2.9.
                  16
                     Social Security Act, § 1814(a)(2)(C); see also 42 CFR § 424.22(a)(1)(v) (2012) (prior
                  to the amendment at 77 Fed. Reg. 67068 (Nov. 8, 2012) (effective Jan.1, 2013)).
                  17
                     The existence of an evaluation and management (E&M) claim does not fulfill the
                  face-to-face requirement. E&M claims include visits and consultations performed by
                  physicians and nonphysician practitioners. In most situations, if the provider billed
                  Medicare for a face-to-face visit with the home health beneficiary, he or she would use an
                  E&M code on the claim.
                  18
                     Social Security Act, § 1814(a)(2)(C). See also 42 CFR § 424.22(a)(1)(v) (2012) (prior
                  to the amendment at 77 Fed. Reg. 67068 (Nov. 8, 2012) (effective Jan. 1, 2013)); MBPM,
                  ch. 7, § 30.5.1.1; and CMS, MLN Matters Article #SE1219, A Physician’s Guide to
                  Medicare’s Home Health Certification, including the Face-to-Face Encounter, release
                  date May 7, 2012.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   3
                           acute care can conduct that encounter as long as he or she informs
                           the certifying physician of that encounter.19
                       2.	 The certifying physician must title, date, and sign the document.20
                       3.	 The face-to-face documentation must be titled as such. CMS does
                           not require physicians to use a specific form to document the
                           face-to-face encounter; as long as the face-to-face encounter
                           documentation contains all content requirements and is properly
                           titled, the certifying physician can use a discharge summary, a
                           clinic note, or an original form to satisfy the requirement.
                       4.	 The date of the encounter must be on the document.
                       5.	 The face-to-face encounter must occur within 90 days prior to the
                           start of care or within 30 days after the start of care.
                       6.	 As required by Medicare, this documentation must include a brief
                           narrative that describes (1) why the patient is homebound and
                           (2) why the skilled service(s) is necessary to treat the patient’s
                           illness or injury. This narrative can address the homebound status
                           and reason for skilled service(s) in two separate sections or
                           combine them in one section.
                  Related Office of Inspector General Work
                  In 2012, the Office of Inspector General (OIG) found through a medical
                  record review that 98 percent of beneficiaries met Medicare coverage
                  requirements for home health services.21 However, OIG also found that
                  HHAs submitted 22 percent of claims in error because services were not
                  medically necessary or claims were coded inaccurately, resulting in $432
                  million in improper Medicare payments. OIG concluded that given the
                  general concern about risks to the Medicare program in the home health
                  area, further investigations beyond the medical record review are needed
                  to determine whether beneficiaries are eligible, services are furnished, and
                  Medicare requirements for payment are met.


                  19
                     76 Fed. Reg. 68526, 68593, and 68606 (Nov. 4, 2011). After our review period, CMS
                  further revised 42 CFR § 424.22(a)(1)(v) to allow an acute-care or post-acute-care NPP
                  to perform the face-to-face encounter in collaboration with or under the supervision of
                  the acute or post-acute physician and to allow that physician to inform the certifying
                  physician. 77 Fed. Reg. 67068, 67106, and 67163 (Nov. 8, 2012) (effective Jan. 1,
                  2013).
                  20
                     After our review period, CMS revised 42 CFR § 424.24(a)(1)(v)(F), effective
                  January 1, 2013, so that it no longer provides that only the certifying physician can title
                  and date the certification. 77 Fed. Reg. 67068, 67163–64 (Nov. 8, 2012).
                  21
                     OIG, Documentation of Coverage Requirements for Medicare Home Health Claims,
                  OEI-01-08-00390, March 2012.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)    4
                  In 2012, OIG found that HHAs did not meet all Federal reporting
                  requirements for Outcome and Assessment Information Set (OASIS) data,
                  which are the basis for home health payments, quality assessments, and
                  information for consumers.22 In 2009, HHAs did not submit required
                  OASIS data for 392,180 claims (6 percent), which represented over
                  $1 billion in Medicare payments. OIG recommended that CMS identify
                  all HHAs that failed to submit OASIS data and that the agency apply a
                  2-percent payment reduction to them.
                  In 2009, OIG found aberrant billing patterns in home health outlier
                  payments in 24 counties nationwide.23 One county in Florida,
                  Miami-Dade, accounted for more home health outlier payments in 2008
                  than the rest of the country combined.

                  METHODOLOGY
                  SCOPE
                  This study determined the extent to which certifying physicians
                  documented face-to-face encounters with beneficiaries. This study is
                  national in scope. It is based on Part A claims from January 1, 2011,
                  through December 31, 2012.
                  Claims Analysis. We obtained all home health Part A claims (7,835,502)
                  from January 1, 2011, until March 31, 2012, to determine the number of
                  initial home health episodes because only these episodes require face-
                  to-face encounters. We determined that 4,226,413 of those claims
                  (54 percent) required face-to-face encounters with the physicians who
                  certified home health services. We then looked at all claims dated on or
                  after April 1, 2011 (2,471,332), which was when CMS started enforcing
                  the requirement.
                  For those beneficiaries in the first episode of home health care, we
                  obtained all Part B claims with dates of service from 90 days prior to or
                  30 days after the start of home health care. We used the physician’s
                  National Provider Identifier (NPI) number from the Part A home health
                  claim and linked it with any Part B claims coded for E&M that had the
                  same NPI number. We found that 68 percent of claims (1,679,050) had
                  matching Part B E&M claims with the ordering physicians and 32 percent
                  (792,282) did not.


                  22
                     OIG, Limited Oversight of Home Health Agency OASIS Data, OEI-01-10-00460,
                  February 2012. 

                  23
                     OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade

                  County and Other Geographic Areas in 2008, OEI-04-08-00570, December 2009. 




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   5
                  Face-to-Face Encounter Documentation. We selected a stratified random
                  sample of 680 home health claims and requested from the HHAs the
                  documentation of the corresponding face-to-face encounters. To
                  determine whether home health claims with matching E&M claims were
                  more likely or less likely to meet the Medicare face-to-face requirement,
                  we stratified the sample on the basis of whether the Part A home health
                  claims had corresponding E&M claims.
                  The first stratum included 340 claims that lacked corresponding E&M
                  claims. We received 313 face-to-face documents, a 92-percent response
                  rate from this stratum. The second stratum included 340 claims that had
                  corresponding E&M claims. We received 331 face-to-face documents, a
                  97-percent response rate from this stratum. We had a 95-percent total
                  response rate for our data collection of face-to-face documents.24 We
                  analyzed the extent to which the documents confirmed encounters. We
                  also analyzed the face-to-face document to determine the extent to which
                  it met the required elements. We compared the percentages of face-to-face
                  documents with E&M visits and those without them.
                  We found no relationship between the presence of an E&M claim and the
                  likelihood that home health agency submitted the face-to-face
                  documentation. Thus, we present data in the aggregate. All results are
                  weighted to the proportion of the stratum in the population.
                  Interviews and Document Review
                  We conducted structured interviews with the four Home Health and
                  Hospice Medicare Administrative Contractors (HH MACs) regarding how
                  they ensure that HHAs meet the face-to-face requirements. We reviewed
                  guidance documents or policies from CMS and the HH MACs about
                  monitoring the face-to-face requirement.
                  Limitations
                  This study did not assess the necessity of home health services, and we did
                  not make clinical determinations about the appropriateness of the narrative
                  portion of the face-to-face document. We limited our analysis to
                  describing this narrative text and the absence of required information. We
                  also did not independently verify that the information on the face-to-face
                  documents was accurate or that the face-to-face encounters were related to
                  the primary reasons that the beneficiaries needed home care.



                  24
                   We will refer all HHAs that did not provide copies of the face-to-face documents to
                  CMS.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   6
                  For a variety of reasons, an E&M claim corresponding to the home health
                  beneficiary’s face-to-face visit may not exist. The physician may not have
                  submitted a claim for the service, or the face-to-face encounter may have
                  occurred outside of the physician’s office. For example, if the encounter
                  occurred in the hospital, the certifying physician may use the hospital
                  physician’s documentation of that encounter. In addition, the presence of
                  an E&M claim alone does not fulfill the face-to-face requirement; the
                  certifying physician must also complete the documentation confirming
                  that visit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   7
                  FINDINGS
                  For 32 percent of home health claims that required
                  face-to-face encounters, the documentation did not
                  meet Medicare requirements, resulting in $2 billion in
                  payments that should not have been made
                  Medicare requires as a condition for payment for home health services that
                  physicians who certify home health eligibility provide appropriate
                  supporting documentation of face-to-face encounters for the initial
                  episodes of care. The face-to-face encounter alone does not satisfy the
                  requirement; the certifying physician must also complete documentation
                  that is clearly titled, signed, and dated. Our review of claims for initial
                  episodes of home health care showed that 32 percent either had no
                  face-to-face documents or had face-to-face documents that lacked at least
                  one of the required elements (see Table 1). We found no difference
                  between the home health claims that had corresponding E&M claims and
                  the home health claims that did not in the percentage of claims that did not
                  meet Medicare requirements.
                  Face-to-face documentation was missing in 10 percent of
                  claims
                  The 10 percent of claims without face-to-face documents totaled
                  $605 million. The HHAs either confirmed when we asked them that they
                  did not have those documents, or they sent other documents, such as
                  physician’s orders, home health referrals, and inpatient notes, which do
                  not meet Medicare’s requirements if not appropriately titled as the
                  face-to-face documentation.
                  Of the face-to-face documents that were submitted, 25 percent
                  were missing one of the required elements
                  The most commonly missing element was the signature of the certifying
                  physician. Seventeen percent ($941 million) of the face-to-face
                  documents were signed by persons other than the certifying physicians.
                  Medicare regulations allow attending physicians who cared for the
                  patients in a recent acute-care or post-acute-care setting, or nonphysician
                  practitioners working with the certifying physicians, to conduct the exams.
                  However, the certifying physician must document that the encounter took
                  place, regardless of who performed the encounter. For 10 percent of
                  documents, we were unable to determine whether the signature was that of
                  the certifying physician because the physician’s printed name—which is
                  not a required element—was missing. (We did not consider these
                  documents to be missing in our calculations.) The remaining elements—
                  an encounter date within the required timeframe, an appropriately titled

Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   8
                  document, the date of the encounter, the date the physician signed the
                  document, and the existence of a physician’s signature (from either the
                  certifying physician or another physician)—were missing much less often.
                  (See Appendix A for examples of face-to-face documents.)25
                  Table 1: Home Health Documents That Did Not Meet Medicare
                  Requirements

                                                                            Percentage Missing   Claim Amount
                  Medicare Requirement
                                                                              From Document*       (in Millions)

                  Face-to-Face Documentation                                              10%            $605.3

                  Elements Required for Face-to-Face                        Percentage Missing   Claim Amount
                  Documentation                                                From Document       (in Millions)

                  Signature of Certifying Physician                                       17%            $941.1

                  Date of Encounter Within the Required Timeframe                          4%            $310.7

                  Appropriate Title                                                        3%            $150.2

                  Date of Encounter                                                        2%            $118.8

                  Date When Physician Signed Document                                      2%            $106.7

                  Physician Signature**                                                    1%              $42.3

                  Total Claims Missing the Face-to-Face Document
                                                                                          32%          $2,037.0
                  or Elements of the Face-to-Face Document***
                  Source: OIG analysis of face-to-face documents, 2013. 

                  *All percentages significant at the p<.05 level. 

                  **Physician signature left blank. 

                  ***Does not add because of overlapping errors. 



                  Physicians inconsistently completed the narrative
                  content on the face-to-face documentation
                  The face-to-face documentation must include a brief narrative that
                  describes that patient’s clinical condition and the way in which the
                  patient’s clinical condition supports his/her homebound status and the
                  need for skilled services. This can be accomplished in as little as three
                  sentences. CMS provided the following example in a guidance document:
                             The patient is temporarily homebound secondary to status post
                             total knee replacement and currently walker dependent with
                             painful ambulation. PT [physical therapy] is needed to restore the
                             ability to walk without support. Short-term skilled nursing is
                             needed to monitor for signs of decomposition or adverse events

                  25
                    These are examples of face-to-face documents collected during this study. We are not
                  expressing an opinion whether these examples meet Federal requirements.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)      9
                           from the new COPD [chronic obstructive pulmonary disease]
                           medical regimen. 26
                  Physicians can document this information in a variety of ways. Some
                  physicians use separate statements for each need for skilled services and
                  reason that patient is homebound (see Appendix A-1). Others write one
                  combined statement similar to the CMS example (see Appendix A-5).
                  CMS gives physicians discretion as to how they document this
                  information; however, CMS will consider the face-to-face documentation
                  incomplete without this narrative. Because the face-to-face requirement is
                  a Medicare condition of payment, CMS will deny the payment for the
                  initial and all subsequent episodes of care.27
                  Narratives did not always appear to follow CMS guidance for
                  describing homebound status and necessity for skilled
                  services
                  Some face-to-face documentation failed to specify why the patient was
                  homebound or to include the reason the skilled service was necessary. In
                  those face-to-face documents that had separate statements for each piece
                  of the narrative, 12 percent were missing narratives supporting the
                  patients’ homebound status and 6 percent were missing narratives
                  regarding the need for skilled services.28
                  Some of the language in the narratives does not appear to conform to
                  guidance about what constitutes appropriate and sufficient documentation.
                  CMS and its contractors released guidance that included examples of
                  language that would be considered inappropriate if used alone.29, 30 (See
                  Table 2 for examples.) We found that, in their descriptions of the
                  beneficiaries’ homebound status, 16 percent of documents said that the
                  beneficiaries were weak and 14 percent said that the beneficiaries were
                  unable to leave home unassisted. (See Table 3 for the reasons most
                  commonly cited in the narrative text.)


                  26
                     CMS, Home Health Face-to-Face Question & Answer, February 28, 2013. Accessed

                  at http://www.cms.gov on August 7, 2013. 

                  27
                     Ibid. 

                  28
                     Because we did not render an opinion about the appropriateness of the narratives, we 

                  did not determine whether these face-to-face documents failed to meet CMS 

                  requirements. 

                  29
                     CMS, Home Health Face-to-Face Question & Answer, February 28, 2013. Accessed
                  at http://www.cms.gov on August 7, 2013. 

                  30
                     CGS, Face-to-Face Documentation for Home Health Certification: Important

                  Information for Certifying Physicians and Nonhysician Practitioners. Accessed at 

                  http://www.cgsmedicare.com/ohb/pubs/mb_J15/2013/08_2013/index.html on August 7,

                  2013. 




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   10
                  Table 2: CMS Contractors’ Examples of Text That Is Insufficient To
                  Support Home Health Claims

                      Text Insufficient To Support                        Text Insufficient To Support
                      Homebound Status                                    Need for Skilled Services

                      Weak                                                Family is asking for help

                      Unable to drive                                     Continues to have problems

                      Unable to leave home                                List of tasks for nurse to do

                      Dementia or confusion                               Patient unable to do wound care

                      Functional decline                                  Diabetes

                  Source: CGS, 2013 Face-to-Face Documentation for Home Health Certification: Important Information for
                  Certifying Physicians and Non-physician Practitioners.


                   
                  Table 3: Most Commonly Used Narrative Text Supporting
                  Homebound Status
                                                                   Percentage of Narrative Texts That
                      Characteristic
                                                                                 Cited Characteristic

                      Taxing effort to leave home                                                     17%

                      Weakness/fatigue                                                                16%

                      Unable to leave home unassisted                                                 14%

                      Unsteady gait/risk of falls                                                     13%

                      Decreased mobility                                                              10%

                      Shortness of breath/dyspnea                                                         9%

                      Poor endurance                                                                      7%
                  Source: OIG analysis of face-to-face documents, 2013.



                  The most commonly used phrase was “taxing effort to leave home.”
                  Physicians used this phrase in 17 percent of face-to-face documentation to
                  explain their patients’ homebound status. In fact, in about half of those
                  documents, the physicians did not list any other reasons. The phrase
                  “taxing effort to leave home” is included in CMS’s definition of
                  homebound, and, therefore, offers no specific statement about the patient’s
                  condition.31




                  31
                       MBPM, ch. 7, § 30.1.1.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)                  11
                  Some of the language in the narratives was similar to the language that
                  CMS and its contractors cited as inappropriate. Moreover, the
                  combinations of many of these phrases in the same document raised
                  questions about whether using multiple phrases that are considered
                  inappropriate individually constitutes a narrative that CMS and its
                  contractors would find sufficient to justify the need for home health when
                  used together.
                  HH MACs vary as to whether they accept forms with
                  checkboxes in the face-to-face documentation
                  HH MACs appear to interpret CMS’s guidance on forms with
                  checkboxes—i.e., forms that list several possible conditions or
                  characteristics, with a box next to each that the physician can mark with a
                  check—differently. CMS allows forms with checkboxes in limited
                  situations; however, the option next to each checkbox must contain the
                  physician’s assessment specific to that patient. In our interviews, one of
                  the four HH MACs offered that it does not accept forms with checkboxes
                  unless the physician writes additional information. 32 Another HH MAC
                  said that it looks at each form on a case-by-case basis and makes its
                  determination, in part, on the basis of whether the form was designed by
                  the HHA or the physician. The use of checkboxes in some forms also
                  raised questions about the extent to which the narrative content meets
                  Medicare requirements. Six percent of face-to-face documents used
                  checkboxes on the forms. (See Image 1.)
                  Image 1: Checkboxes on Face-to-Face Document
                   I certify that my clinical findings support that this patient is homebound (i.e., absences 

                   from the home require a taxing effort, are for medical appointments and services, or are 

                   infrequent and of short duration for other reasons such as religious services, etc.) as 

                   evidenced by:

                          	 Patient is unable to drive (permanently or temporarily) due to current illness,
                              surgery, or debility
                          	 Patient is non-weight bearing or requires assistance/assistive device(s)
                          	 Patient requires constant supervision for safety reasons (either cognitive or
                              functional, or both)
                  Some	 face-to-face
                              Patient has a mentaldocuments           contain
                                                   health diagnosis that             elements
                                                                         prevents their              that,
                                                                                        ability to leave home
                  although         not required by Medicare, provide
                          	 Other:_____________________________________________________                    
                  information that could be useful
                  Source: Example from OIG face-to-face document review, 2013.




                  32
                     CMS does not allow checkboxes created by HHAs. CMS does allow checkboxes
                  created by physicians or generated from physicians’ electronic health records. CMS,
                  Home Health Face-to-Face Question & Answer, February 28, 2013. Accessed at
                  http://www.cms.gov on March 12, 2014.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)    12
                  Some face-to-face documents contain elements that,
                  although not required by Medicare, provide
                  information that could be useful
                  Medicare requirements specify which elements must appear on the
                  face-to-face document; however, additional elements could add clarity to
                  the document.
                  NPI. Seven percent of documents listed the certifying physicians’ NPIs.
                  Including this number makes it easier to identify the physician, especially
                  when the handwriting is illegible. The printed names of the physicians
                  were illegible in 4 percent of the documents.
                  Printed Name of Physician. In addition to the required physician
                  signature, most documents included the printed (either handwritten or
                  typed) names of those physicians. Ten percent of face-to-face documents
                  were missing a printed name. Many signatures were illegible, and a
                  printed name may be the only way to identify the certifying physician.
                  Name of Nonphysician Practitioner. Medicare regulations allow a
                  nonphysician practitioner to complete the face-to-face encounter. Five
                  percent of documents provided a dedicated space to identify those
                  individuals.
                  Letterhead of HHA or Hospitals. Slightly over half (58 percent) of the
                  documents contained the letterheads of either the HHAs or the hospitals.
                  This could indicate that these facilities use standardized forms for the
                  physicians to complete.
                  List of Home Health Services Needed. Most face-to-face documents had
                  checkboxes to indicate a need for nursing (81 percent), physical therapy
                  (80 percent), or speech/language pathology (76 percent). Far fewer
                  documents included checkboxes for occupational therapy (36 percent),
                  home health aide services (21 percent), or a medical social worker
                  (20 percent). (See Image 2 for an example.)
                  Image 2: List of Home Health Services Needed
                    I certify that, based on my findings, the following services are medically 

                    reasonable and necessary:

                               Skilled Nursing
                               Physical Therapy
                               Speech Language Pathology
                               Occupational Therapy 
                               Medical Social Worker Consult 
                               Home Care Aide (for personal care) 

                   Source:   Example from OIG analysis of face-to-face documents, 2013.
                   

Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   13
                  CMS oversight of the face-to-face requirement is
                  minimal
                  CMS does not have a specific program to oversee compliance with the
                  requirement for face-to-face documentation. Instead, it reviews the
                  documentation when it conducts a medical record review as part of its
                  general effort to deter and detect home health fraud. Because the
                  face-to-face encounter is required for the initial episodes only, just a
                  fraction of those reviews would include the face-to-face document.33
                  In their medical record reviews, the four HH MACs do not verify the
                  information on the face-to-face documents. In particular, they do not
                  confirm that the physician who signed the document is actually the
                  certifying physician. HH MACs cited lack of access to Medicare Part B
                  physician claims and limited time and resources as major reasons why
                  they do not verify the information.
                  Although they do not verify the face-to-face document, the HH MACs do
                  offer guidance and training on the requirement. All four HH MACs point
                  to training that they offer HHAs about the face-to-face requirement,
                  including Web sites, Web seminars, and provider presentations. Two
                  HH MACs also reached out to the physician community in an attempt to
                  address problems they have seen, such as insufficient narratives and
                  failure to sign and date the documents. However, in our interviews with
                  HH MACs, they told us that they are limited in their interactions with
                  physicians, because activities such as training for those providers are not
                  the responsibility of the HH MACs.
                  Like the HH MACs, HHAs rely on physicians’ accurately completing the
                  face-to-face documents. All four HH MACs reported that HHAs had
                  expressed frustration about the burden that the face-to-face document
                  imposes. HHAs are held financially accountable for failure to obtain the
                  face-to-face documentation but have no authority to compel physicians to
                  complete it either timely or accurately.




                  33
                       Reviews of claims for continuing home health care do not require a face-to-face visit.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)        14
                  CONCLUSION AND RECOMMENDATIONS
                  Home health fraud has been well documented, and efforts to uncover it are
                  ongoing. In July 2013, CMS issued a temporary moratorium on new
                  home health providers in parts of Florida and Illinois to fight fraud in
                  Medicare.34 As another fraud prevention strategy, Medicare also requires
                  as a condition of payment that a beneficiary have a face-to-face encounter
                  with the physician, or certain practitioners working with them, who
                  initially certified that patient for Medicare home health services.
                  However, our findings show that 32 percent of claims for home health
                  services that required face-to-face encounters did not meet Medicare
                  requirements, resulting in $2 billion of payments that should not have been
                  made.
                  We also found that CMS lacks an adequate oversight mechanism to ensure
                  that this face-to-face requirement is met. Ensuring that an oversight
                  mechanism is in place will also prove instructive for CMS as it
                  implements a similar face-to-face requirement for durable medical
                  equipment in the future.
                  We recognize that the very design of the Medicare home health payment
                  system makes oversight of the face-to-face requirement difficult. Four
                  HH MACs process Part A and B home health claims. However, the actual
                  physician encounter that would establish the face-to-face eligibility is
                  covered under Part B, which may be administered by a separate MAC. As
                  a result, matching claims associated with one beneficiary under the two
                  separate systems is not readily achievable. In addition, HHAs, which are
                  required to obtain the face-to-face documents in order to receive payment,
                  have no authority to compel physicians to complete and sign the
                  documents.
                  As a way to help bridge this gap and to further the intent of the
                  face-to-face requirement, we recommend that CMS:
                  Consider requiring a standardized form to ensure that
                  physicians include all elements required for the face-to-face
                  documentation
                  To enhance oversight and to clarify completion of the required elements,
                  CMS should consider requiring the use of a standardized form to serve as
                  the face-to-face documentation. Because over half of the face-to-face
                  documents are completed using standardized forms from hospitals or
                  HHAs, this should not be a significant adjustment for most physicians.


                  34
                       78 Fed. Reg. 46339 (July 29, 2013).



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   15
                  Develop a specific strategy to communicate directly with
                  physicians about the face-to-face requirement
                  CMS needs to provide additional formal training and outreach about the
                  importance of completing the face-to-face document. Because HH MACs’
                  responsibility to conduct provider outreach does not extend to physicians,
                  HH MACs are not directly training physicians. It is therefore incumbent
                  upon CMS to identify ways to educate the physician community about the
                  requirements.
                  Develop other oversight mechanisms for the face-to-face
                  requirement
                  Relying on medical record reviews to ensure that HHAs are meeting the
                  face-to-face requirement is clearly not sufficient. CMS could work with
                  the various payment contractors to develop other review procedures to
                  ensure compliance. This charge has heightened importance given CMS’s
                  plans to implement the face-to-face requirement for durable medical
                  equipment.




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   16
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all three of the recommendations in this report. To
                  address our first recommendation, CMS stated that it will consider
                  whether requiring a standardized form will help resolve issues identified in
                  our report. We recognize that using a standardized form may eliminate
                  some flexibility for physicians; however, CMS must ensure that all
                  required elements are present on the face-to-face document.
                  To address our second recommendation, that CMS develop a specific
                  strategy to communicate directly with physicians about the face-to-face
                  requirement, CMS plans to issue additional educational materials to
                  physicians.
                  To address our final recommendation, CMS stated that it is implementing
                  an oversight plan through the Supplemental Medical Review Contractor
                  (SMRC). CMS will have the SMRC conduct document-only reviews for
                  every HHA in the country to validate a sample of the face-to-face
                  encounters.
                  Lastly, we withdrew a recommendation from our draft reports that CMS
                  require physicians to include their NPIs on the face-to-face document. As
                  of July 1, 2014, CMS will require that HHAs report the NPI of the
                  certifying physician and the physician who signed the plan of care, if
                  different from the certifying physician.35 We believe that this new
                  requirement satisfies our original recommendation without imposing any
                  additional burden.
                  For a full text of CMS’s comments, see Appendix C.




                  35
                    CMS Manual System, Pub. No. 100-04, Medicare Claims Processing, Transmittal
                  2789, Change Request 8441, Sept. 20, 2013.



Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   17
                  APPENDIX A-1: SAMPLES OF FACE-TO-FACE DOCUMENTS 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   18

                  APPENDIX A-2 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   19

                  APPENDIX A-3 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   20

                  APPENDIX A-4 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   21

                  APPENDIX A-5 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   22

                  APPENDIX A-6 





Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   23

                   APPENDIX B – CONFIDENCE INTERVALS 





          Characteristic                                                            Percentage
                                                          Sample Size
                                                                              (95-Percent Confidence
                                                                                     Interval)



          Claims that did not meet the face-to-face                                             32.2%
          requirement                                                   644
                                                                                        (28.4%–36.0%)

          Claims without face-to-face                                                            9.7%
          documentation                                                 644
                                                                                         (7.2%–12.1%)

          Face-to-face documents that were                                                      25.0%
          missing at least one required element                         583
                                                                                        (21.2%–28.6%)

          Face-to-face documents without                                                         2.8%
          appropriate titles                                            583
                                                                                          (1.5%–4.2%)

          Face-to-face documents that were not                                                   2.0%
          dated by physicians                                           583
                                                                                          (0.2%–1.8%)

          Face-to-face documents missing dates of                                                1.6%
          face-to-face encounters                                       583
                                                                                          (0.5%–2.7%)

          Face-to-face documents not signed by                                                   1.0%
          physicians                                                    583
                                                                                          (0.2%–1.8%)

          Face-to-face documents not signed by                                                  17.0%
          certifying physicians                                         583
                                                                                        (13.8%–20.2%)

          Face-to-face documents not completed                                                   4.2%
          within the required timeframe                                 583
                                                                                          (2.5%–6.0%)

          Face-to-face documents not dated by                                                    2.0%
          physicians                                                    583
                                                                                           (.9%–3.2%)

          Face -to-face documents lacking printed
          names or contraining llegible printed                                                 13.7%
                                                                        583
          names for the signing physicians                                              (10.7%–16.7%)

          Face-to-face documents using                                                           6.1%
          checkboxes                                                    583
                                                                                          (4.0%–8.1%)

         Source: OIG analysis of face-to-face documents, 2013                                    Cont’d




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   24
          Characteristic
                                                          Sample Size           Percentage
                                                                              (95-Percent CI)

          Face-to-face documents for which it was
          not possible to determine whom the                                                    11.9%
                                                                        583
          signatures belonged to                                                      (9.0%–14.7%)

          Face-to-face documents missing at least                                               21.5%
          one required element                                          583
                                                                                     (18.0%–25.0%)
          Face-to-face documents missing
          narrative justifying beneficiaries’                                                   11.9%
                                                                        583
          homebound status                                                            (9.0%–14.7%)

          Face-to-face documents without narrative                                              5.9%
          for beneficiaries’ need for skilled services                  583
                                                                                       (3.9%–7.9%)

          Face-to-face documents with narrative
          citing taxing effort for beneficiaries to                                             17.3%
                                                                        583
          leave home                                                                 (14.0%–20.6%)

          Face-to-face documents with narrative                                                 16.0%
          listing beneficiaries’ weakness/fatigue                       583
                                                                                     (12.9%–19.2%)

          Face-to-face documents with narrative
          describing beneficiaries as unable to                                                 14.2%
                                                                        583
          leave home unassisted                                                      (11.2%–17.3%)

          Face-to-face documents with narrative                                                 13.1%
          listing beneficiaries’ unsteady gait                          583
                                                                                     (10.2%–16.1%)

          Face-to-face documents with narrative                                                 9.6%
          listing beneficiaries decreased mobility                      583
                                                                                      (7.1%–12.2%)

          Face-to-face documents with narrative
          listing beneficiaries’ shortness of                                                   9.0%
                                                                        583
          breath/dyspnea                                                              (6.4%–11.5%)

          Face-to-face documents with narrative                                                 6.0%
          listing beneficiaries’ poor endurance                         583
                                                                                       (4.6%–8.1%)

          Face-to-face documents listing the                                                    6.8%
          physicians’ NPIs                                              583
                                                                                       (4.6%–9.1%)

          Face-to-face documents with illegible                                                 4.1%
          printed names for the signing physicians                      583
                                                                                       (2.2%–5.8%)

         Source: OIG analysis of face-to-face documents, 2013                                    Cont’d




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   25
          Characteristic
                                                                Sample Size             Percentage
                                                                                    (95-Percent CI)

          Face-to-face documents with a space to                                              5.0%
          list a nonphysician practitioner                             583
                                                                                       (3.2%–6.7%)

          Face-to-face documents with letterhead                                             58.3%
          of hospitals or HHAs                                         583
                                                                                     (54.1%–62.6%)

          Face-to-face documents with a checkbox                                             81.4%
          for nursing                                                  583
                                                                                     (78.0%–84.8%)

          Face-to-face documents with a checkbox                                             79.7%
          for physical therapy                                         583
                                                                                     (76.3%–83.2%)

          Face-to-face documents with a checkbox                                             76.2%
          for speech therapy                                           583
                                                                                     (72.5%–79.9%)

          Face-to-face documents with a checkbox                                             36.1%
          for occupational therapy                                     583
                                                                                     (32.0%–40.3%)

          Face-to-face documents with a checkbox                                             20.9%
          for home health aide services                                583
                                                                                     (17.4%–24.4%)

          Face-to-face documents with a checkbox                                             19.8%
          for medical social worker                                    583
                                                                                     (16.4%–23.2%)

         Source: OIG analysis of face-to-face documents, 2013




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   26
         Table B1: Claims That Should Not Have Been Paid




          Reason Claim Should Not Have Been
                                                                                      Dollars
          Paid                                            Sample Size
                                                                              (95-Percent Confidence
                                                                                     Interval)



          Claim did not meet Medicare                                                         $2,027.0
          requirements                                                  644
                                                                                    ($1,728.7–$2,325.3)

          Claim did not provide a face-to-face                                                  $605.3
          document                                                      583
                                                                                       ($479.5–$731.1)

          Face-to-face document was signed by                                                   $941.1
          someone other than certifying physician                       583
                                                                                     ($820.6–$1,061.7)

          Face-to-face document was not                                                         $310.7
          completed within the required timeframe                       583
                                                                                       ($222.1–$399.2)

          Face-to-face document did not have an                                                 $150.2
          appropriate title                                             583
                                                                                       ($100.4–$200.0)

          Date of face-to-face encounter was                                                    $118.8
          missing                                                       583
                                                                                        ($55.6–$182.1)

          Face-to-face document was not signed                                                   $42.3
          by a physician                                                583
                                                                                         ($22.0–$62.7)

          Face-to-face document was not dated by                                                $106.7
          physician                                                     583
                                                                                        ($60.6–$152.8)

         Source: OIG analysis of face-to-face documents, 2013




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   27
                  APPENDIXC
                  Agency Comments




             DEPARThfENT OF HEALTH & HUMAN SERVICES                                      Cantors for Modlcaro & Medica•d Services
                    ~-   -     --~ - - - · - - - - - - - - - ~--------~-~ --~                      ~ =~ --~- - - -

                                                                                        Atlmlttlstrator
                                                                                        Washington, DC 20201




           DATE:             JAN 3 1 2014
           TO:               Daniel R. Levinson
                             Inspector General

           FROM:             Marilyn Tavenner
                             Administrator

           SUBJECT: Otlice of Inspector General (O!G) Draft Report: ''Limited Compliance with
           Medicare's Home Health Face-To-Face Documentation Requirements"
                       (OEI-0 1-12-00390)


           Thank you for the opportunity to review and comment on the subject report. Congress mandated
           face-to-face encounters in order to increase physician involvement with Medicare home health
           (1111) beneficiaries :md, as part of the certification for Medicare HH services, to assure a patient's
           eligibility for the Medicare HI! benefit.

           The OIG reports that 32 percent of HH claims that required a face-to-lace encounter did not meet
           Medicare requirements, either missing the face-to-face documentation altogether or lacking in at
           lt::ast one of the required elements. To address those inadequacies, OIG recommends that CMS
           consider requiring a st:mdardized form for documenting the physician encounter, conducting
           physician specific outreach, and evaluating alternative oversight mechanisms. The OIG's
           analysis and recommendations are focused on strengthening the HI-I face-to-face requirements to
           ensure that valid and meaningful physician involvement is occurring, and that the health care
           needs of Medicare HH beneficiaries are met. CMS appreciates OIG's analysis and
           recommendations, and will continue lo work with health care providers. specifically physicians,
           non-physician pmctit.ioners, and home health agencies (!!HAs), to help them comply with the
           HH face-to-face requirements

            The OIG recommendations and ClviS responses to those recommendations are discussed below.

            OIG Recommendation

            The OTG recommends that CMS consider requiring a standardized form to ensure that physicians
            document all clements required for the face-to-face documentation.




Limited Compliance With Medicare's Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)                            28
Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   29
Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   30
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Joyce Greenleaf, Regional
                  Inspector General for Evaluation and Inspections in the Boston regional
                  office; Russell Hereford, Deputy Regional Inspector General; and
                  Kenneth Price, Deputy Regional Inspector General.
                  Danielle Fletcher served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the Boston regional office who
                  conducted the study include Amy Glynn. Central office staff who
                  provided support include Clarence Arnold, Heather Barton,
                  Mandy Brooks, and Christine Moritz.




Limited Compliance With Medicare’s Home Health Face-to-Face Documentation Requirements (OEI-01-12-00390)   31
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
